audit report



Return to the USDOJ/OIG Home Page



Universal Hiring Program Grant for the City University of New York
GR-70-98-010
June 1998 
Office of the Inspector General

AUDIT RESULTS
The Office of the Inspector General, Audit Division, is in the process of auditing a grant awarded December 1, 1995 under the Universal Hiring Program (UHP) by the Office of Community Oriented Policing Services (COPS) to the City University of New York (CUNY).  The purpose of CUNY's grant was to provide $13 million to hire 175 additional sworn law enforcement officers.  Because CUNY could not provide us with critical records and other records were materially inaccurate, we discontinued our audit.  If this documentation is not made available to us within 30 days, we will question all funds received by CUNY and recommend that future funds be withheld until CUNY is in compliance with grant conditions.

The University was unable to provide us with the following information:

Payroll records, or other documentation, which showed that the University maintained its baseline number of locally funded officers during the grant period;

	Data on the number of officer vacancies during the grant; and

	Accurate data to support its reimbursement requests.

Consequently, we were not able to determine whether the University complied with grant conditions.